Docket Nos. 19-422 and 19-563
Patrick J. Collins, et al. v. Steven T. Mnuchin, Secretary of the Treasury, et al.
SERVICE LIST
CHARLES JUSTIN COOPER
Cooper & Kirk, PLLC
1523 New Hampshire Avenue, N.W.
Washington, DC 20036
Telephone: (202) 220-9600
Email: ccooper@cooperkirk.com
Counsel for Petitioners-Respondents Collins
JEFFREY B. WALL
Office of the Solicitor General
United States Department of Justice
950 Pennsylvania Avenue NW
Washington, DC 20530-0001
Telephone: (202) 514-2217
Email: SupremeCtBriefs@USDOJ.gov
Counsel for Respondents-Petitioners Steven T. Mnuchin
AARON LLOYD NIELSON
J. Reuben Clark Law School
Brigham Young University
516 JRCB
Provo, UT 84602
Telephone: (801) 422-2669
Email: nielsona@law.byu.edu
Court-appointed amicus curiae

